Office of Audit Services | Reports & Publications | Office of Inspector General | U.S. Department of Health and Human Services
Skip Navigation
Change Font Size
+
-
Reset
Report Fraud Button
Home
FAQs
FOIA
Careers
Contact
HEAT
Download Reader
Twitter
YouTube
Office of Inspector General U.S. Department of Health and Human Services
Search the OIG Web Site
Advanced
About OIG
About Us
About the Inspector General
Organization Chart
Careers
Contact Us
Reports & Publications
All Reports & Publications
Archives
Fraud
Child Support Enforcement
Consumer Alerts
Enforcement Actions
Grant Fraud
Medicaid Fraud Control Units - MFCUs
OIG Most Wanted Fugitives
Report Fraud
State False Claims Act Reviews
Whistleblower Ombudsman
Compliance
Accountable Care Organizations
Advisory Opinions
Compliance 101and Provider Education
Compliance Guidance
Corporate Integrity Agreements
Open Letters
RAT-STATS
Safe Harbor Regulations
Self-Disclosure Information
Special Fraud Alerts, Bulletins, and Other Guidance
Recovery Act Oversight
Accountability Objectives
Audit Activities
Investigative Activities
Evaluation Activities
Whistleblower Protection
Related Links
Exclusions
Online Searchable Database
LEIE Downloadable Databases
Monthly Supplement Archive
Quick Tips
Waivers
Background Information
Applying for Reinstatement
Contact the Exclusions Program
Frequently Asked Questions
Special Advisory Bulletin and Other Guidance
Newsroom
What's New
News Releases
New Media
Spotlight Articles
Testimony & Speeches
OIG Outlook
Podcasts
Video
Switch to the full site
Report Fraud
Home
What's New
Enforcement Actions
Most Wanted Fugitives
Spotlight Articles
Newsroom
OIG Home
Reports
Office of Audit Services
General Departmental
Audit Report (A-06-09-00006)
09-09-2009
Review of City of El Paso Department of Public Healths Bioterrorism and Emergency Preparedness Program
Executive Summary
The City of El Paso Department of Public Health (the department) claimed bioterrorism program expenditures totaling $2.4 million for the 2-year period ending August 31, 2006; the $274,000 that we reviewed was allowable, reasonable, and allocable to the program.  However, we are questioning two additional amounts:  $157,000 in unobligated funds that the department did not return to the Texas Department of State Health Services and $30,000 in undocumented expenditures.
Complete Report
Download the
complete report
(PDF)
Adobe® Acrobat®
is required to read PDF files.
Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
I'm Looking For
Let's start by choosing a topic
Select One
X
Compendium
Priority recommendations summarized.
FY 2014 Work Plan
OIG projects planned for 2014.
Semiannual Report
Significant OIG activities in 6-month increments.
Compliance 101
Free educational resources.
Advisory Opinions
Legal opinions issued by the OIG about the application of its fraud and abuse authorities.
Child Support Enforcement
OIG plays a role in pursuing deadbeat parents.
All Reports and Publications
Office of Audit Services
Administration on Aging (AoA)
Administration for Children and Families (ACF)
Centers for Disease Control and Prevention (CDC)
Centers for Medicare and Medicaid Services (CMS)
Food and Drug Administration (FDA)
General Departmental
Health Resources and ServicesAdministration (HRSA)
Indian Health Service (IHS)
National Institutes of Health (NIH)
Federal/State Joint Audit Initiatives
Substance Abuse and Mental Health Services Administration (SAMHSA)
Office of Evaluation and Inspections
Health Care Fraud and Abuse Control Program Report
Semiannual Reports to Congress
Medicaid Integrity Reports
Top Management & Performance Challenges
Compendium of Priority Recommendations
Strategic Plan
Work Plan
Portfolio and Other Reports
Freedom of Information Act (FOIA)
Federal Register Notices
Regulatory Authorities
OIG Budget
Recovery Act Oversight Reports
Recovery Act-related Audit and Inspection Reports
Archives
Office of Audit Services
Administration for Children and Families (ACF)
Centers for Disease Control and Prevention (CDC)
Centers for Medicare and Medicaid Services (CMS)
Food and Drug Administration (FDA)
General Departmental
Health Resources and ServicesAdministration (HRSA)
Indian Health Service (IHS)
National Institutes of Health (NIH)
Federal/State Joint Audit Initiatives
Substance Abuse and Mental Health Services Administration (SAMHSA)
Office of Evaluation and Inspections
Health Care Fraud and Abuse Control Program Report
Semiannual Reports to Congress
Medicaid Integrity Reports
Top Management & Performance Challenges
Compendium of Unimplemented Recommendations: Orange Book
Compendium of Unimplemented Recommendations: Red Book
Work Plan
Federal Register Notices
Regulatory Authorities
OIG Budget
Testimony & Speeches
Safe Harbor Regulations
Enforcement Action: False and Fraudulent Claims
Enforcement Action: Kickback and Physician Self-Referral
Enforcement Action: Patient Dumping
Enforcement Action: Select Agents and Toxins
Exclusions Database
Report Fraud
Stay Connected
Twitter
YouTube
Widgets
Podcasts
Email Updates
RSS Feeds
Get Email Updates
Stay up to date on the latest OIG news and opinions
About OIG
About Us
About the Inspector General
Organization Chart
Careers
Contact Us
Reports & Publications
All Reports & Publications
Archives
Fraud
Child Support Enforcement
Consumer Alerts
Enforcement Actions
Medicaid Fraud Control Units - MFCUs
OIG Most Wanted Fugitives
Report Fraud
State False Claims Act Reviews
Whistleblower Ombudsman
Compliance
Accountable Care Organizations
Advisory Opinions
Compliance 101 and Provider Education
Compliance Guidance
Corporate Integrity Agreements
Open Letters
RAT-STATS
Safe Harbor Regulations
Self-Disclosure Information
Special Fraud Alerts, Bulletins, and Other Guidance
Recovery Act Oversight
Accountability Objectives
Audit Activities
Investigative Activities
Evaluation Activities
Whistleblower Protection
Related Links
Exclusions
Online Searchable Database
LEIE Downloadable Databases
Monthly Supplement Archive
Waivers
Quick Tips
Background Information
Applying for Reinstatement
Contact the Exclusions Program
Frequently Asked Questions
Special Advisory Bulletin and Other Guidance
Newsroom
What's New
News Releases
New Media
Spotlight Articles
Testimony & Speeches
OIG Outlook
Podcasts
Video
back to top
Accessibility
Privacy Notice
Disclaimers
Plain Writing
Guidance Practices
HIPDB
HHS.gov
IGnet
USA.gov
Site Map
Office of Inspector General, U.S. Department of Health and Human Services | 330 Independence Avenue, SW, Washington, DC  20201
Follow us on Twitter
|
Privacy
|
Disclaimers